No. 19-816
In the

Supreme Court of the United States
KRISTINA BOX, Commissioner,
Indiana State Department of Health, et al.,
Petitioners,
v.
PLANNED PARENTHOOD OF INDIANA AND KENTUCKY, INC.,
Respondent.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the Brief Amicus Curiae
of Americans United for Life in Support of Cross-Petitioner contains 3,318 words,
excluding parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on the 27nd day of January 2020.

STEVEN H. ADEN
Counsel of Record
AMERICANS UNITED FOR LIFE
1150 Connecticut Ave NW, Suite 500
Washington, DC 20036
Steven.Aden@aul.org
(202) 741-4917
Counsel for Amicus Curiae

